                                       ary 10, 2011
                                   Janua



OIG-CA-11-004
FRB OIG
      G 2011-01

The Hon
      norable Spencer Bach hus
Chairma
      an
Committtee on Fina
                 ancial Serv
                           vices

The Hon norable Jud
                  dy Biggert
Chairmaan
Committtee on Finaancial Serv
                            vices, Subc
                                      committee
  on Inssurance, Housing andd Community Opportu unity

U.S. Ho
      ouse of Rep
                presentativ
                          ves
2129 Rayburn House Office Building
Washinggton, DC 20515
                2

Dear Ch
      hairman Bachus and Chairman
                         C        B
                                  Biggert:

This lettter and its enclosure respond to
                                        o your Novvember 22,, 2010, reqquest for
informattion concerning the Departmen
                              D         t of the Treasury’s (T
                                                             Treasury) activities
                                                                       a          to
                                                                                   o
establish the Bureau of Conssumer Fina ancial Prote
                                                  ection (Bure
                                                             eau).

In prepa
       aring our re
                  esponse, we
                            w (1) revie ewed the applicable sections
                                                              s         of the Dodd--
Frank Wall
       W Street Reform and Consumer Protection Act and         d other rele
                                                                          evant laws and
(2) requ
       uested, obtained, and reviewed relevant in   nformation and docum  mentation from
                                                                                     f
Treasuryy and the Board
                   B     of Governors
                            G           o the Fede
                                        of          eral Reserve System. In additionn,
we interrviewed keey Treasuryy officials including:
                                         i          t Assista
                                                    the        ant to the President
                                                                          P         a
                                                                                    and
Special Advisor too the Secre
                            etary of the e Treasury on the Consumer Fin   nancial
Protection Bureau, Treasury’’s General Counsel, the Chief of Staff of the t Bureau  u
Implemeentation Teeam, the Deputy
                            D        Assistant Secrretary for Manageme
                                                               M         ent and
Budget, and the Director
                 D        of the
                             t Office of Financia   al Managem ment.

As a courtesy, we e provided the Treasu
                                      ury Deputy Secretary with a dra
                                                                    aft of this
        nd
letter an  its enclo
                   osure and c
                             considered Treasury’s commen ts as we  p
                                                                    prepared  the
final doc
        cument.
Page 2

We are sending a similar letter to the Honorable Barney Frank, Ranking Member.

We would be pleased to brief you or members of your staffs on this material or any
other work under our respective or joint jurisdictions. If you have any questions,
you may contact us at (202) 622-1090 (Inspector General Eric M. Thorson), or at
(202) 973-5000 (Inspector General Elizabeth A. Coleman). In addition, a member of
your staff may contact Marla A. Freedman, Assistant Inspector General for Audit,
Treasury Office of Inspector General, at (202) 927-5400, or Jacqueline M. Becker,
Associate Inspector General for Legal Services, Board of Governors of the Federal
Reserve System Office of Inspector General, at (202) 973-5045.

Sincerely,


/s/                                 /s/

Eric M. Thorson                     Elizabeth A. Coleman
Inspector General                   Inspector General
Department of the Treasury          Board of Governors of the Federal Reserve
                                        System

Enclosure
                                                                                          Enclosure
                                                                                            Page 1

    Joint Response by the Inspectors General of the Department of the Treasury and
                  Board of Governors of the Federal Reserve System

    Request for Information Regarding the Bureau of Consumer Financial Protection


A. Transparency

1. While the interim authority of the Bureau lies with Treasury, who is responsible
   for exercising the role of Inspector General – the Federal Reserve OIG or
   Treasury’s OIG?

     Both the Office of Inspector General (OIG) for the Board of Governors of the
     Federal Reserve System (Board) and the OIG for the Department of the Treasury
     (Treasury) have a role in overseeing the Bureau of Consumer Financial
     Protection (Bureau) during the interim period. Under provisions of the Dodd-
     Frank Wall Street Reform and Consumer Protection Act (Dodd-Frank Act), the
     Board’s Inspector General is responsible for exercising the role of Inspector
     General for the Bureau. Specifically, the Dodd-Frank Act provides that the
     Board’s Inspector General “shall have all of the authorities and responsibilities
     provided by [the Inspector General Act of 1978] with respect to the [Bureau], as
     if the Bureau were part of the [Board].” This provision became effective on the
     date of enactment. Moreover, Treasury OIG has authority to oversee the interim
     efforts to establish the Bureau because (1) Treasury has authority to conduct
     interim activities related to establishing the Bureau and (2) the Inspector General
     Act grants Treasury OIG the authority to conduct audits, investigations, and
     other reviews of Treasury’s programs and operations. 1 The Board OIG and
     Treasury OIG plan to coordinate and cooperate on audits, inspections, and other
     reviews of the Bureau’s operations, as appropriate.

2. Has Secretary Geithner taken any steps, formally or informally, to delegate to
   any other person or persons the interim authority granted to him by Section
   1066 of the Dodd-Frank Act? If so, please identify the person or persons,
   describe any delegation of authority or duties and provide copies of any
   document reflecting that delegation.



1
  Treasury OIG’s oversight authority does not include the Internal Revenue Service, which is under
the jurisdictional oversight of the Treasury Inspector General for Tax Administration, or the Troubled
Asset Relief Program (TARP), which is under the jurisdictional oversight of the Special Inspector
General for the TARP.
                                                                                Enclosure
                                                                                  Page 2

    Joint Response by the Inspectors General of the Department of the Treasury and
                  Board of Governors of the Federal Reserve System

     Request for Information Regarding the Bureau of Consumer Financial Protection


      The interim authority contained in section 1066 of the Dodd-Frank Act is
      divided into two sections: section 1066(a) and section 1066(b). Section
      1066(a) grants authority to the Secretary of the Treasury (Secretary) to perform
      the Bureau’s functions included under subtitle F of title X of the Dodd-Frank
      Act. Prior to the designated transfer date, the functions of the Bureau under
      subtitle F include, among other things, the authority to (1) negotiate employee
      transfers with the transferring agencies; (2) carry out the provisions of subtitle F
      related to the compensation and benefits of those employees transferring to the
      Bureau; and (3) accompany the current federal regulators on consumer
      compliance examinations of large banks, savings associations, and credit
      unions. On the designated transfer date, however, the functions of the Bureau
      under subtitle F are expanded to include rulemaking, examination, and other
      functions that transfer to the Bureau from the other federal regulators. Section
      1066(b) grants Treasury authority to perform “administrative services” in
      support of the Bureau.

      Secretary Geithner delegated the interim authority granted to him under section
      1066 of the Dodd-Frank Act to Professor Elizabeth Warren, in her role as
      Special Advisor to the Secretary, and other Treasury officials who are working
      to stand up the Bureau, design its structure, identify and hire staff, and set
      initial goals and priorities. According to Treasury’s General Counsel, Treasury’s
      organic statute, which defines the Department’s general authorities, (1) permits
      the Secretary to delegate his authorities (in this case, the interim authority
      granted under section 1066), and (2) does not require documentation of such
      delegations. 2 Apart from standing delegation orders, Treasury officials told us
      that the delegation of the Secretary’s interim authority under section 1066 has
      not been documented.

      For matters related to funding the Bureau, Treasury and the Board executed an
      interagency agreement that identifies certain employees who are authorized to
      act in the Secretary’s place and with his authority for designated activities. As
      part of this interagency agreement, Secretary Geithner authorized the following
      individuals to work with the Board on funding-related matters: Dan Tangherlini,

2
    31 U.S.C. § 321(b)(2) (providing the Secretary’s delegation authority).
                                                                         Enclosure
                                                                           Page 3

 Joint Response by the Inspectors General of the Department of the Treasury and
               Board of Governors of the Federal Reserve System

  Request for Information Regarding the Bureau of Consumer Financial Protection


   Assistant Secretary for Management and Chief Financial Officer; Adewale
   Adeyemo, Chief of Staff of the Bureau Implementation Team; Nani Coloretti,
   Deputy Assistant Secretary for Management and Budget; Elizabeth Erickson,
   Acting Chief Financial Officer of the Bureau Implementation Team; Dorrice Roth,
   Director, Office of Financial Management; and David Legge, Associate Director
   for Accounting, Office of Financial Management. The interagency agreement is
   provided as an Exhibit to this Enclosure.

3. What oversight, if any, is Secretary Geithner (or anyone designated by Secretary
   Geithner) exercising with respect to (a) acts undertaken by others utilizing the
   interim authority conferred on the Treasury Secretary by Section 1066; and
   (b) proposals advanced by others with respect to use of that authority? Are
   Secretary Geithner or others within the Department able to exercise oversight
   effectively with respect to Professor Warren in light of her status as an
   Assistant to the President? As a practical matter, does that status preclude any
   oversight by anyone outside the White House?

   According to Treasury, when Professor Warren began her work on
   September 20, 2010, the Department put an oversight framework in place to
   provide for regular reviews of the implementation of the Bureau. These reviews
   include, but are not limited to, the following topics: policy priorities, the
   organizational design of the Bureau, resource allocation and budget, and
   decisions regarding personnel and hiring. As part of this process, Professor
   Warren has met regularly with the Secretary, Deputy Secretary, and other senior
   Treasury officials, including the Under Secretary for Domestic Finance, the
   Assistant Secretary for Financial Institutions, the Assistant Secretary for
   Management and Budget, the Chief of Staff, and the General Counsel. Treasury
   advised that over the course of this initial period, Professor Warren has met or
   talked by phone with the Secretary on at least seven separate occasions,
   including at least one private one-on-one meeting or call each month. She has
   met with the Deputy Secretary on at least eight separate occasions (three of
   which also included the Secretary). Treasury also advised that going forward,
   the Deputy Secretary has organized a regular, bi-weekly Bureau update meeting
   that will be attended by the Deputy Secretary, Professor Warren, other senior
   Treasury officials, and various members of the Bureau implementation team.
                                                                             Enclosure
                                                                               Page 4

 Joint Response by the Inspectors General of the Department of the Treasury and
               Board of Governors of the Federal Reserve System

  Request for Information Regarding the Bureau of Consumer Financial Protection



   Professor Warren stated that her role as an Assistant to the President is
   separate from her role as a Special Advisor to the Secretary. She explained that,
   as a Special Advisor to the Secretary, she is a full-time Treasury employee
   whose activities, which include periodically updating the President on the
   Bureau’s implementation, are subject to the same oversight by the Secretary or
   his delegates afforded to any other Treasury official. She further noted that her
   role as an Assistant to the President does not preclude oversight related to her
   Bureau responsibilities. In describing her role as an Assistant to the President,
   Professor Warren stated that she speaks to the President and his advisors about
   issues that are not related to standing up the Bureau.

4. Section 1100G of the Act requires the Bureau to describe the impact of any
   proposed rule on the cost of credit for small entities. Who will be in charge of
   conducting this analysis? Please provide descriptions of positions and the dates
   of hire for each Bureau staff person charged with conducting this analysis.

   The Bureau implementation team has not yet identified an individual(s) to
   conduct the analysis regarding the impact of any proposed rule on the cost of
   credit for small entities. Section 1100G, which requires the Bureau to perform
   this analysis, is not effective until the designated transfer date. Position
   description(s) for the individual(s) who will be conducting the analysis are not
   yet available. According to Treasury officials, the Bureau does not plan to
   propose any rules prior to the transfer date. Treasury officials further stated that
   they recognize that this is an important issue, and that the Bureau
   implementation team expects to review the issue carefully during the course of
   its future work.

5. Do you agree that the interim authority specified in Section 1066 of the Act
   terminates on the designated transfer date, and that after such date, the Bureau
   can function only if a director has been confirmed with the advice-and-consent
   of the Senate?

   The interim authority specified in section 1066 of the Dodd-Frank Act does not
   fully terminate on the designated transfer date. Sections 1066(a) and 1066(b)
   identify two different expirations for Treasury’s authority. The Secretary’s
                                                                                      Enclosure
                                                                                        Page 5

    Joint Response by the Inspectors General of the Department of the Treasury and
                  Board of Governors of the Federal Reserve System

    Request for Information Regarding the Bureau of Consumer Financial Protection


     authority under section 1066(a) terminates when a Director is confirmed by the
     Senate, rather than on the designated transfer date. Section 1066(a) states,
     “The Secretary is authorized to perform the functions of the Bureau under this
     subtitle until the Director of the Bureau is confirmed by the Senate....” In
     contrast, the authority of the Department of the Treasury under section 1066(b)
     terminates on the designated transfer date. Section 1066(b) states, “The
     Department of the Treasury may provide administrative services necessary to
     support the Bureau before the designated transfer date.”

     If the Bureau does not have a Senate-confirmed Director by the designated
     transfer date, the Bureau may continue to operate under the Secretary’s section
     1066(a) authority. As discussed above, the Secretary’s authority under section
     1066(a) does not expire on the designated transfer date; instead, this authority
     continues until a Director is confirmed by the Senate. Specifically, until a
     Director is confirmed, section 1066(a) grants the Secretary the authority to
     carry out the functions of the Bureau found under subtitle F of title X. 3 On the
     designated transfer date, subtitle F grants the Bureau the authority to:

        •   prescribe rules, issue orders, and produce guidance related to the federal
            consumer financial laws that were, prior to the designated transfer date,
            within the authority of the Board, the Office of the Comptroller of the
            Currency, the Office of Thrift Supervision, the Federal Deposit Insurance
            Corporation, and the National Credit Union Administration;

        •   conduct examinations (for federal consumer financial law purposes) of
            banks, savings associations, and credit unions with total assets in excess
            of $10 billion, and any affiliates thereof;

        •   prescribe rules, issue guidelines, and conduct a study or issue a report
            (with certain limitations) under the enumerated consumer laws that were
            previously within the authority of the Federal Trade Commission (FTC)
            prior to the designated transfer date;

3
 These transferred authorities are found in sections 1061(b) and 1063 of the Dodd-Frank Act,
which are effective on the designated transfer date.
                                                                         Enclosure
                                                                           Page 6

Joint Response by the Inspectors General of the Department of the Treasury and
              Board of Governors of the Federal Reserve System

Request for Information Regarding the Bureau of Consumer Financial Protection




    •   conduct all consumer protection functions relating to the Real Estate
        Settlement Procedures Act of 1974, the Secure and Fair Enforcement for
        Mortgage Licensing Act of 2008, and the Interstate Land Sales Full
        Disclosure Act that were previously within the authority of the Secretary
        of the Department of Housing and Urban Development prior to the
        designated transfer date;

    •   enforce all orders, resolutions, determinations, agreements, and rulings
        that have been issued, made, prescribed, or allowed to become effective
        prior to the designated transfer date by any transferor agency or by a
        court of competent jurisdiction, in the performance of consumer financial
        protection functions that are transferred to the Bureau, with respect to a
        bank, savings association, or credit union with total assets in excess of
        $10 billion, and any affiliates thereof; and

    •   replace the Board, the Office of the Comptroller of the Currency, the
        Office of Thrift Supervision, the Federal Deposit Insurance Corporation,
        the National Credit Union Administration, and the Department of Housing
        and Urban Development in any lawsuit or proceeding that was
        commenced by or against one of the transferor agencies prior to the
        designated transfer date, with respect to a consumer financial protection
        function transferred to the Bureau.

    Since subtitle F transfers the above functions to the Bureau on the
    designated transfer date, in the absence of a Senate-confirmed Director, the
    text of section 1066(a) authorizes the Secretary to perform these transferred
    functions. The Secretary’s authority to carry out these transferred functions
    terminates when a Director is confirmed by the Senate.

    In addition to the transferred functions, the Bureau has newly-established
    federal consumer financial regulatory authorities. The Secretary is not
    permitted to perform certain newly-established Bureau authorities if there is
                                                                                        Enclosure
                                                                                          Page 7

    Joint Response by the Inspectors General of the Department of the Treasury and
                  Board of Governors of the Federal Reserve System

    Request for Information Regarding the Bureau of Consumer Financial Protection


        no confirmed Director by the designated transfer date. 4 For example, if there
        is no Senate-confirmed Director by the designated transfer date, in general,
        the Secretary is not permitted to exercise the Bureau’s authority to:

        •   prohibit unfair, deceptive, or abusive acts or practices under subtitle C in
            connection with consumer financial products and services;

        •   prescribe rules and require model disclosure forms under subtitle C to
            ensure that the features of a consumer financial product or service are
            fairly, accurately, and effectively disclosed both initially and over the term
            of the product or service;

        •   prescribe rules under section 1022 relating to, among other things, the
            filing of limited reports to the Bureau for the purpose of determining
            whether a nondepository institution should be supervised by the Bureau;

        •   supervise nondepository institutions under section 1024, including the
            authority to (a) prescribe rules defining the scope of nondepository
            institutions subject to the Bureau’s supervision, (b) prescribe rules
            establishing recordkeeping requirements that the Bureau determines are
            needed to facilitate nondepository supervision, and (c) conduct
            examinations of nondepository institutions.

6. What appropriation account, or accounts, is the Treasury Department using to
   fund the work relating to the Bureau? How much does the Department estimate
   that this effort will cost in total?

     According to Treasury, funds from the Board, not from appropriation accounts,
     support the activities of the Bureau. 5 Treasury established a separate “Treasury
     General Account” to receive disbursements from a Board account, called the

4
  The Bureau’s newly-established authorities are found throughout title X of the Dodd-Frank Act,
including section 1024, and multiple provisions of section 1022 and subtitle C. According to the
text of the Dodd-Frank Act, the Secretary’s authority under section 1066(a) does not extend to
these newly-established authorities.
5
  The Board is not funded through appropriations. 12 U.S.C. §§ 243-44.
                                                                                        Enclosure
                                                                                          Page 8

    Joint Response by the Inspectors General of the Department of the Treasury and
                  Board of Governors of the Federal Reserve System

    Request for Information Regarding the Bureau of Consumer Financial Protection


     Bureau Fund, which was established in accordance with the funding provisions
     set forth in the Dodd-Frank Act. 6 Thus far, the Bureau implementation team has
     made two requests to the Board for funds to support the activities to establish
     the Bureau – an initial request on August 11, 2010, for $18.4 million and a
     supplemental request on December 21, 2010, for $14.37 million.

     Treasury officials stated that it would currently be very difficult to estimate the
     total cost of establishing the Bureau because that activity will span several
     years. We were told that the Bureau implementation team currently has a draft
     budget for Fiscal Year (FY) 2011 and FY 2012, which will be included in the
     President’s FY 2012 budget request.

7. Please provide a list of all employees of the Treasury Department, Board of
   Governors, and any other federal agency who since July 21, 2010, have
   performed, are performing, or are likely to perform any tasks relating in any way
   to establishing the Bureau and who are (a) serving in positions for which they
   were nominated by the President and confirmed by the Senate; (b) members of
   the Senior Executive Service; (c) Schedule C employees; or (d) paid at the GS-
   15 level or its equivalent.

     Treasury’s Response:

     The list below, provided by Treasury, includes: (1) Presidentially appointed,
     Senate-confirmed (PAS) officials within Treasury’s Departmental Offices who
     have performed any task related to establishing the Bureau; (2) staff hired by
     Treasury to work full-time on establishing the Bureau; (3) Treasury employees
     detailed to work on implementation efforts; (4) other Treasury employees who
     spend 50 percent or more of their time on implementation activities; and
     (5) detailees assigned to Treasury from other federal or state agencies working
     on Bureau implementation.




6
 The Treasury General Account established for the Bureau is a no-year special receipts account in
which the funds will remain available until expended.
                                                                                         Enclosure
                                                                                           Page 9

    Joint Response by the Inspectors General of the Department of the Treasury and
                  Board of Governors of the Federal Reserve System

    Request for Information Regarding the Bureau of Consumer Financial Protection


     The list does not include all employees who “have performed, are performing, or
     are likely to perform any tasks relating in any way to establishing the Bureau”
     because, according to the Chief of Staff of the Bureau Implementation Team:

        “[T]he request would require Treasury to identify every qualifying
        employee who has received (or is likely to receive) even a single email
        related to the [Bureau] or has had (or is likely to have) even a single
        discussion related to the [Bureau]. No such list currently exists. And
        creating such a list, and confirming its accuracy, would require a
        significant amount of time and resources. Moreover, it would include
        numerous employees who have done very little work regarding the
        [Bureau]. For all these reasons, we submitted an alternative list . . . of
        all qualifying employees who have devoted a majority of their time, in
        various capacities, to establishing the Bureau.”

     With respect to Treasury PAS employees, Treasury stated that the list provided,
     given the broad scope of the requested information, includes every PAS official
     who has received an email related to the Bureau, had a discussion related to the
     Bureau, or attended a meeting at which the Bureau was discussed.

     Additionally, the list below includes employees of the Board and other federal or
     state agencies that have been detailed to Treasury. According to the Chief of
     Staff of the Bureau Implementation Team, Treasury is unable to identify
     personnel from other agencies who may be working on Bureau issues but are
     not detailees. 7

             Last Name         First Name       Category
             Allison           Herb             PAS (no longer with Treasury)
             Barr              Michael          PAS (no longer with Treasury)
             Brainard          Lael             PAS
             Cohen             David            PAS
             Collyns           Charles          PAS

7
 If the Board OIG identifies personnel in other agencies who are working on Bureau issues, it will
provide that information under a separate cover.
                                                                      Enclosure
                                                                       Page 10

Joint Response by the Inspectors General of the Department of the Treasury and
              Board of Governors of the Federal Reserve System

Request for Information Regarding the Bureau of Consumer Financial Protection



         Last Name     First Name   Category
         Geithner      Timothy      PAS
         Goldstein     Jeffrey      PAS
         Ireland       S. Leslie    PAS
         Krueger       Alan         PAS (no longer with Treasury)
         Lago          Marisa       PAS
         Levey         Stuart       PAS
         Madison       George       PAS
         Miller        Mary         PAS
         Mundaca       Michael      PAS
         Rios          Rosie        PAS
         Tangherlini   Daniel       PAS
         Wallace       Kim          PAS
         Wolin         Neal         PAS
         Coloretti     Nani         Non-Career SES
         Warren        Elizabeth    Non-Career SES
         Horowitz      Linda        SES
         Lepley        Rich         SES
         Twohig        Peggy        SES
         Antonakes     Steve        Limited Term SES
         Dickman       Marilyn      Limited Term SES
         Slagter       Dennis       Limited Term SES
         Breslaw       April        SES Equivalent
         Burniston     Tim          SES Equivalent
         Campbell      Michael      SES Equivalent
         Chow          Edwin        SES Equivalent
         Hancock       Gary         SES Equivalent
         Leiss         Wayne        SES Equivalent
         Marshall      Mira         SES Equivalent
         Gordon        Mike         Senior-Level
         Adeyamo       Adewale      Schedule C/GS-14
         Goldfarb      Rachael      Schedule C/GS-15
         Cochran       Kelly        GS-15
         Coleman       John         GS-15
                                                                        Enclosure
                                                                         Page 11

Joint Response by the Inspectors General of the Department of the Treasury and
              Board of Governors of the Federal Reserve System

Request for Information Regarding the Bureau of Consumer Financial Protection




         Last Name      First Name   Category
         Date           Rajeev       GS-15
         Galicki        Josh         GS-15
         Geldon         Dan          GS-15
         Hrdy           Alice        GS-15
         Huang          Eugene       GS-15
         Kershbaum      Sharon       GS-15
         Lev            Ori          GS-15
         Martinez       Adam         GS-15
         Martinez       Zixta        GS-15
         Morris         Lucy         GS-15
         Pluta          Scott        GS-15
         Reilly         Deborah      GS-15
         Royster        Felicia      GS-15
         Scanlon        Thomas       GS-15
         Silberman      David        GS-15
         Stapleton      Claire       GS-15
         Vale           Elizabeth    GS-15
         Cantrell       Diane        GS-15 Equivalent
         Decker         Sharon       GS-15 Equivalent
         Duncan         Tim          GS-15 Equivalent
         McCoy          Patricia     GS-15 Equivalent
         VanMeter       Stephen      GS-15 Equivalent

 Board’s Response:

 Many Board employees have been consulted on matters pertaining to the
 Bureau. The following is a list of Board employees who have or are performing a
 substantive role in tasks related to establishing the Bureau. Specifically, these
 individuals have been involved in matters relating to the transfer of functions
 and employees, retirement benefits issues, information sharing agreements, and
 information technology security issues.
                                                                          Enclosure
                                                                           Page 12

 Joint Response by the Inspectors General of the Department of the Treasury and
               Board of Governors of the Federal Reserve System

  Request for Information Regarding the Bureau of Consumer Financial Protection



           Last Name          First Name     Category
           Duke               Elizabeth      PAS
           Alvarez            Scott          SES Equivalent
           Boutillier         Elaine         SES Equivalent
           Braunstein         Sandra         SES Equivalent
           Chanin             Leonard        SES Equivalent
           Clark              Michell        SES Equivalent
           Fox                Lynn           SES Equivalent
           Glissman           Todd           SES Equivalent
           Hammond            Donald         SES Equivalent
           Mitchell           William        SES Equivalent
           Price              Tonda          SES Equivalent
           Riesz              James          SES Equivalent
           Romero             Raymond        SES Equivalent
           Tinsley Pelitere   Tara           SES Equivalent
           Vassallo           Karen          SES Equivalent
           Wheatley           Katherine      SES Equivalent
           Acconero           Michael        GS-15 Equivalent
           Anderson           Jean           GS-15 Equivalent
           Delaney            Craig          GS-15 Equivalent
           Eskow              Beverley       GS-15 Equivalent
           Foster             Alye           GS-15 Equivalent
           Kapoor             Michelle       GS-15 Equivalent
           Richards           Brenda         GS-15 Equivalent
           Roach              Reginald       GS-15 Equivalent

8. The Federal Deposit Insurance Corporation (FDIC), the Securities and Exchange
   Commission (SEC) and the Commodity Futures Trading Commission (CFTC) are
   publicly disclosing the names of all persons from outside government who meet
   with officials of those agencies with respect to implementation of the Act, as
   well as the subject matter of such meetings. Are the federal employees
   responsible for establishing the Bureau, including Professor Warren, complying
   with this protocol with respect to meetings regarding the Bureau and all related
   issues? If so, where is this information available? Has this information been
                                                                                        Enclosure
                                                                                         Page 13

    Joint Response by the Inspectors General of the Department of the Treasury and
                  Board of Governors of the Federal Reserve System

    Request for Information Regarding the Bureau of Consumer Financial Protection


     disclosed with respect to meetings that have taken place since the President
     signed the Act into law on July 21?

     On November 1, 2010, Treasury announced a policy to disclose meetings
     regarding Dodd-Frank Act implementation (which includes Bureau-related
     activities) between certain Treasury officials and individuals from private sector
     entities and/or nongovernmental organizations. 8 The policy covers meetings
     attended by Treasury officials who are Deputy Assistant Secretaries or of equal
     or higher rank, including (1) Counselors to the Secretary and (2) Special
     Advisors to the Secretary, including Professor Warren. The policy also states
     that Treasury will respond to individual requests for information about meetings
     that occurred prior to November 1, 2010, through the standard Freedom of
     Information Act process.

     In accordance with its policy, on December 30, 2010, Treasury released
     information on Dodd-Frank implementation meetings that occurred during the
     month of November 2010. The disclosure included the names and affiliations of
     all non-Treasury participants and a list of primary discussion topics. As of the
     date of our letter, the disclosure is at
     www.treasury.gov/initiatives/wsr/Pages/DoddFrank.aspx. Also, in response to a
     Freedom of Information Act request, Treasury posted to its website Professor
     Warren’s schedule from September 20, 2010, through December 3, 2010. 9
     Treasury plans to continue to post Professor Warren’s schedule on a regular
     basis.

B. Bureau Organizational Structure

1. Have those responsible for organizing the Bureau studied the organizational and
   managerial criticisms of existing federal financial regulators and changes they
   have made to address these issues? Have they identified lessons learned from


8
  The policy, “Treasury Policy on Voluntary Disclosure of Meetings on Dodd-Frank Implementation,”
can be found on Treasury’s website at www.financialstability.gov/roadtostability/transparency.html.
9
  As of the date of our letter, Professor Warren’s schedule was available at
www.treasury.gov/FOIA/Pages/other-index.aspx.
                                                                                        Enclosure
                                                                                         Page 14

     Joint Response by the Inspectors General of the Department of the Treasury and
                   Board of Governors of the Federal Reserve System

     Request for Information Regarding the Bureau of Consumer Financial Protection


      the enforcement failures that plagued these agencies in recent years? How are
      they incorporating these lessons in designing the structure of the Bureau?

      According to Treasury, the Bureau implementation team has met with officials
      from a number of federal financial regulators and has studied their organizational
      structures and managerial frameworks. 10 The Bureau implementation team
      reported that it also met with officials from other recently created governmental
      entities, such as Treasury’s Office of Financial Stability and the Federal Housing
      Finance Agency, to identify lessons learned and seek advice about how to avoid
      start-up pitfalls. Furthermore, Treasury commissioned (and received) a study
      that addressed lessons learned from previous federal mergers, stand-ups, and
      reorganizations. According to the Deputy Assistant Secretary for Management
      and Budget, the Bureau is incorporating a lesson learned from a recently
      established federal agency that experienced morale problems when it attempted
      to use six different payroll and compensation systems to pay employees
      performing the same function. As a result, the Bureau plans to implement a
      single payroll and compensation system prior to the transfer of employees from
      other agencies.

      According to the Chief of Staff of the Bureau Implementation Team, the Bureau
      will continue to identify the lessons learned from regulatory enforcement
      failures. The Bureau implementation team is establishing a Memorandum of
      Understanding with each of the other regulatory agencies to gain access to the
      proprietary and restricted regulatory information associated with enforcement
      issues. Furthermore, Professor Warren said that she has identified several
      lessons learned that she is applying to the Bureau. For instance, she believes
      that in order to establish an effective enforcement and supervision function, an
      organization must have a strong culture, effectively communicate its mission,
      and maintain a coherent vision. According to Professor Warren, it is important
      that senior leadership support “line-level” employees, including delegating
      sufficient authority to complete assigned duties and responsibilities. In addition,


10
  These federal financial regulators include the Board, Office of the Comptroller of the Currency,
Office of Thrift Supervision, Federal Deposit Insurance Corporation, Federal Trade Commission, and
National Credit Union Administration.
                                                                           Enclosure
                                                                            Page 15

 Joint Response by the Inspectors General of the Department of the Treasury and
               Board of Governors of the Federal Reserve System

  Request for Information Regarding the Bureau of Consumer Financial Protection


   Professor Warren stated that regulators need to “maintain distance” from the
   institutions they are examining.

2. Is there a plan for the Bureau’s organizational structure? What divisions or
   offices are being considered? Has a draft organizational plan or draft budget
   been prepared? If so, please describe the process for obtaining public comment
   with respect to such drafts. If a draft organizational plan and budget have not
   yet been prepared, please describe the process for preparing them, including the
   persons responsible, the factors and models being considered, and whether and
   how public input will be sought with respect to a draft organizational plan and
   budget.

   The Bureau implementation team currently has a draft plan of the Bureau’s
   organizational structure and a draft budget for FY 2011 and FY 2012. A
   December 8, 2010, draft of the Bureau’s organizational structure indicates that,
   in addition to administrative divisions and offices, the Bureau is considering
   three mission-related directorates: Education and Engagement; Supervision and
   Enforcement; and Research, Markets, and Rules. According to Treasury
   officials, the organizational plan is a “work-in-progress,” and the Bureau
   implementation team expects to continue modifying the plan going forward.
   Treasury officials also stated that the Bureau implementation team’s draft
   budgets for FY 2011 and FY 2012 will be included in the President’s FY 2012
   request, which traditionally is released at the end of January or beginning of
   February.

   Regarding the solicitation of public input, Treasury does not have a formal
   process to obtain feedback regarding the draft organizational plan and draft
   budget. However, Professor Warren stated that she regularly seeks input from
   federal agencies, industry participants, and other stakeholders during informal
   discussions. In addition, the Bureau plans to include an online forum for public
   input on its website, which it intends to launch by the end of January 2011.

3. How will the Bureau’s structure address the need to ensure that regulations,
   examinations, and enforcement strategies do not lead to a further reduction in
   the availability or affordability of credit for small businesses and consumers?
                                                                                        Enclosure
                                                                                         Page 16

     Joint Response by the Inspectors General of the Department of the Treasury and
                   Board of Governors of the Federal Reserve System

     Request for Information Regarding the Bureau of Consumer Financial Protection


      The Bureau implementation team plans to include an Office of Small Business
      and Community Banks within the Bureau’s organizational structure. In addition,
      the Bureau’s draft organizational chart includes a Research, Markets, and Rules
      division that, according to Treasury, comprises three components: a research
      team that studies consumer behavior and product risks; a rulemaking team that
      drafts rules, interpretations, and guidance; and a markets team that focuses on
      understanding and monitoring markets for individual products, such as
      mortgages, credit cards, and student loans. The Bureau implementation team
      expects that these teams will work together to ensure that policy initiatives are
      tailored to identified problems and that any policy initiatives that affect
      consumer risk, affordability, and access are appropriately estimated.

4. Despite an infusion of at least $500 million in Federal funds, the Bureau will be
   subject to little or no oversight of how such money is spent. What internal
   processes and mechanisms will be in place to safeguard against waste, fraud
   and abuse?

      As discussed in our answer to Question A.6., Treasury reported that the Bureau
      implementation team made two requests to the Board for funds to support the
      activities to establish the Bureau – an initial request on August 11, 2010, for
      $18.4 million and a supplemental request on December 21, 2010, for $14.37
      million. 11 The Bureau implementation team follows existing Treasury internal
      controls policies and procedures for financial activities such as contracting,
      purchase requests, and disbursements. In addition, Treasury officials stated that
      the Bureau of the Public Debt’s Administrative Resource Center (ARC) provides
      the Bureau with financial management services to ensure that financial systems
      and processes comply with federal laws and regulations. 12 The Bureau
      implementation team is in the process of developing the Bureau’s policies and
      procedures and determining whether to continue using ARC or implement a
      different financial management system after the designated transfer date.


11
   According to section 1017(c) of the Dodd-Frank Act, the funds transferred from the Board to the
Bureau are not government funds or appropriated monies.
12
   ARC provides administrative services such as financial management to various federal agencies,
including the Bureau implementation team.
                                                                                           Enclosure
                                                                                            Page 17

     Joint Response by the Inspectors General of the Department of the Treasury and
                   Board of Governors of the Federal Reserve System

     Request for Information Regarding the Bureau of Consumer Financial Protection


      The ongoing independent oversight provided by the OIGs is another means for
      safeguarding against waste, fraud, and abuse within the Bureau’s programs and
      operations. Additionally, the new Bureau will be subject to external oversight by
      Congress and others. For example, the Government Accountability Office (GAO)
      is responsible for conducting an annual audit of the financial transactions of the
      Bureau in accordance with generally accepted government auditing standards,
      and the Bureau is required to provide GAO with an assertion as to the
      effectiveness of its internal controls for financial reporting.

C. Bureau Regulatory Agenda

1. Is the Treasury Secretary, his designee or anyone else, empowered to exercise
   the Bureau’s rulemaking authority prior to the designated transfer date? If so,
   will any proposed rules, final rules, or advanced notices of proposed rulemaking
   be issued prior to the designated transfer date (if possible, please identify the
   topics those rules will address or identify the date or dates by which those
   topics will be identified). Is there a plan for the Secretary or his designee to
   solicit public input before formulating a proposed rule by, for example, issuing
   advanced notices of proposed rulemaking, as other agencies implementing the
   Act have done?

      The Treasury Secretary is not authorized to prescribe rules under the Bureau’s
      rulemaking authority prior to the designated transfer date. 13 Until that date,
      rulemaking authority under federal consumer financial law remains with the
      federal regulatory agencies that currently have such rulemaking
      responsibilities. 14 However, if confirmed by the Senate, the Director of the



13
   Subtitle F of title X of the Dodd-Frank Act, which describes the Secretary’s interim authority,
does not include a provision that authorizes the Secretary to issue rules prior to the designated
transfer date under the Bureau’s authority. In addition, since the Secretary is not authorized to
prescribe rules prior to the designated transfer date, the Secretary cannot delegate this authority to
a designee.
14
   The provisions of the Dodd-Frank Act that transfer rulemaking authority to the Bureau are found
in subtitles F and H of title X, and these provisions do not become effective until the designated
transfer date.
                                                                                          Enclosure
                                                                                           Page 18

     Joint Response by the Inspectors General of the Department of the Treasury and
                   Board of Governors of the Federal Reserve System

     Request for Information Regarding the Bureau of Consumer Financial Protection


      Bureau is granted a limited amount of rulemaking authority prior to the
      designated transfer date, 15 to include, among other things:

         •   conditional or unconditional exemptions of certain individuals, institutions,
             or consumer financial products or services from the Bureau-related
             provisions of the Dodd-Frank Act; 16

         •   the process for gathering information from individuals or institutions
             participating in the consumer financial services markets; 17

         •   the filing of limited reports to the Bureau for the purpose of determining
             whether a nondepository institution should be supervised and regulated
             by the Bureau; 18

         •   the confidential treatment of information obtained from persons in
             connection with an exercise of the Bureau’s authority; 19

         •   the process for registering persons that participate in the consumer
             financial services markets (other than insured depository institutions,
             credit unions, or related persons); 20




15
   Rulemaking authority for the “Federal consumer financial laws” was provided to the Director
under section 1022 of the Dodd-Frank Act. Prior to the designated transfer date, this rulemaking
authority for the “Federal consumer financial laws” applies to the provisions of the Dodd-Frank Act
that are effective as of enactment. Prior to the designated transfer date, the Director’s rulemaking
authority does not include (1) those laws that must be transferred to the Bureau from the other
federal regulators, or (2) the newly-established Bureau authorities found under subtitle C. Under
sections 1061(d) and 1037, the rulemaking authority related to these provisions is effective on the
designated transfer date.
16
   Section 1022(b)(3).
17
   Section 1022(c)(4).
18
   Section 1022(c)(5).
19
   Section 1022(c)(6)(A).
20
   Section 1022(c)(7)(A).
                                                                              Enclosure
                                                                               Page 19

     Joint Response by the Inspectors General of the Department of the Treasury and
                   Board of Governors of the Federal Reserve System

     Request for Information Regarding the Bureau of Consumer Financial Protection


          •   the scope of nondepository institutions subject to the supervision and
              regulation of the Bureau, which must be issued in consultation with the
              FTC; 21 and

          •   the process of recordkeeping and other informational requirements that
              the Bureau determines are needed to facilitate the supervision of
              nondepository persons and institutions, which must be issued in
              consultation with state agencies. 22

      While the Secretary is not authorized to prescribe rules prior to the designated
      transfer date, Treasury is considering whether it will issue advance notices of
      proposed rulemaking (ANPRs), which according to Treasury, do not contain
      substantive rules, but are “a means of gathering information and input, before
      the transfer date.” Treasury has not yet made a decision regarding the content
      or timing of any such potential ANPRs.

      According to Treasury officials, the Bureau implementation team is using
      informal channels, including public forums and meetings with industry
      representatives, to collect information regarding the Bureau’s rulemaking
      considerations. In addition, the Bureau implementation team intends to include a
      page on the Bureau website, which is planned to be launched by the end of
      January 2011, where the public can provide its input on any number of topics
      relating to the Bureau.

2. Will priorities be identified prior to the designated transfer date with respect to
   rulemaking proceedings to be undertaken by the Bureau after the designated
   transfer date? Who is responsible for identifying those priorities? What
   considerations will be taken into account in identifying those priorities? Is there
   a plan to seek public input with respect to those priorities?

      Professor Warren and the Bureau implementation team are in the process of
      identifying priorities for rulemaking proceedings to be undertaken after the

21
     Section 1024(a)(2).
22
     Section 1024(b)(7).
                                                                                         Enclosure
                                                                                          Page 20

     Joint Response by the Inspectors General of the Department of the Treasury and
                   Board of Governors of the Federal Reserve System

     Request for Information Regarding the Bureau of Consumer Financial Protection


      designated transfer date. Professor Warren told us that cost savings, improved
      regulatory compliance, and simplified consumer disclosures are among the
      factors being considered in establishing the rulemaking priorities. In addition,
      Professor Warren and members of the Bureau implementation team have met
      with staff from the financial regulatory agencies that will be transferring
      rulemaking authority to the Bureau in an effort to better understand existing
      regulatory priorities. Professor Warren provided examples of two policy
      initiatives that will receive priority: (1) consolidating duplicate and overlapping
      mortgage disclosure forms mandated by the Truth in Lending Act and the Real
      Estate Settlement Procedures Act and (2) simplifying credit card agreements to
      ensure that customers fully understand fees and finance charges.

      Professor Warren has informally collected public input through meetings with
      industry representatives and consumer groups. In addition, according to
      Treasury, Bureau officials are continuing to meet with members of the public to
      obtain input with respect to rulemaking priorities. The Bureau also intends to
      collect public input through its website, which it plans to launch by the end of
      January 2011.

3. Does the Treasury Secretary, his designee, or anyone else have the power to
   order supervisory examinations prior to the designated transfer date?

      The Treasury Secretary is not authorized to conduct supervisory examinations
      prior to the designated transfer date. 23 Until that date, consumer compliance
      examinations may be conducted by the regulatory agencies that have
      examination authority under current law. 24 However, during the interim period,
      the Secretary may exercise the Bureau’s authority to have Bureau examiners

23
   Subtitle F of title X of the Dodd-Frank Act, which describes the Secretary’s interim authority,
does not include a provision that authorizes the Treasury Secretary to order supervisory
examinations prior to the designated transfer date. In addition, since the Treasury Secretary is not
authorized to order examinations prior to the designated transfer date, the Treasury Secretary
cannot delegate this authority to a designee.
24
   The provisions of the Dodd-Frank Act that transfer rulemaking, examination, and other authorities
to the Bureau are found in subtitles F and H of title X, and these provisions do not become effective
until the designated transfer date.
                                                                                         Enclosure
                                                                                          Page 21

     Joint Response by the Inspectors General of the Department of the Treasury and
                   Board of Governors of the Federal Reserve System

     Request for Information Regarding the Bureau of Consumer Financial Protection


      participate (on a sampling basis) in the current regulators’ compliance
      examinations of depository institutions with total assets greater than $10
      billion, and any affiliate thereof. In addition, if nominated by the President and
      confirmed by the Senate, the Director is authorized to conduct supervisory
      examinations of nondepository institutions prior to the designated transfer
      date. 25

4. Will priorities be identified prior to the designated transfer date with respect to
   enforcement proceedings to be undertaken by the Bureau after the designated
   transfer date? Who is responsible for identifying those priorities? What
   considerations will be taken into account in identifying those priorities? Is there
   a plan to seek public input with respect to those priorities?

      According to Treasury, the Bureau implementation team is developing plans,
      policies, procedures, and staffing levels for the Bureau’s enforcement function.
      While the Bureau has not yet established priorities for enforcement activities
      that will be undertaken after the designated transfer date, the recent hiring of
      implementation team leaders for (1) enforcement and (2) nondepository and
      depository supervision will enhance the priority-setting process. Professor
      Warren stated that she will make sure that lessons learned from other regulatory
      agencies are considered as the Bureau sets its enforcement priorities. With
      regard to public input, Professor Warren said that she derives insights from
      meetings with industry, consumer groups, and citizens. She noted that she
      plans to collect public input on enforcement issues through the Bureau’s
      website, which is planned to be launched by the end of January 2011.

5. Several provisions of the Act require coordination between the Bureau and the
   Federal Trade Commission (FTC). Have discussions taken place with regard to
   this coordination? Have decisions been made regarding the considerations that
   will be taken into account in determining how to coordinate the activities of
   these two agencies? Is there a plan to seek public input with respect to this
   issue?

25
  The Director’s authority to examine nondepository institutions is found in section 1024 of the
Dodd-Frank Act, and this provision became effective on the date of enactment.
                                                                                         Enclosure
                                                                                          Page 22

     Joint Response by the Inspectors General of the Department of the Treasury and
                   Board of Governors of the Federal Reserve System

     Request for Information Regarding the Bureau of Consumer Financial Protection


      Professor Warren stated that coordination with FTC has occurred at all levels,
      and that she regularly speaks with the FTC Chairman. In addition, the Bureau
      implementation team and FTC staff are discussing the status and timing of the
      rulemaking authority that will transfer to the Bureau. Coordination on
      enforcement issues has not yet begun. However, Professor Warren said the
      Bureau implementation team intends to begin developing a specific coordination
      plan that will include a Memorandum of Understanding that addresses topics
      such as enforcement, consumer financial products and services, consumer
      complaints, and civil actions. The Bureau implementation team and FTC have
      also discussed coordination issues during meetings of an interagency working
      group comprised of representatives from each of the federal regulatory agencies
      that will be transferring consumer protection functions to the Bureau. 26

      According to a Treasury official, there is no formal plan to seek public input
      regarding coordination with FTC; however, coordination issues are addressed
      during meetings between the Bureau implementation team (including Professor
      Warren) and the public. In addition, Professor Warren stated that the new
      Bureau website will include a mechanism for public input on any Bureau-related
      issue, and that the Bureau plans to launch its website in late January 2011.




26
  The participating agencies in the interagency working group are the Board, Office of the
Comptroller of the Currency, Office of Thrift Supervision, Federal Deposit Insurance Corporation,
National Credit Union Association, Department of Housing and Urban Development, and FTC.
Exhibit to Question A.2.
                  Page 1
Exhibit to Question A.2.
                  Page 2
Exhibit to Question A.2.
                  Page 3
Exhibit to Question A.2.
                  Page 4
Exhibit to Question A.2.
                  Page 5
Exhibit to Question A.2.
                  Page 6
Exhibit to Question A.2.
                  Page 7
Exhibit to Question A.2.
                  Page 8
Exhibit to Question A.2.
                  Page 9
Exhibit to Question A.2.
                Page 10
